                                  December 1, 1999

                                  A. KEITH STRANGE
                                  VICE PRESIDENT, PURCHASING AND MATERIALS

                                  JOHN H. WARD
                                  VICE PRESIDENT, FINANCE, CONTROLLER

                                  SUBJECT:	 Capital Personal Property
                                            Report Number FR-FA-00-003

                                  This report presents an interim finding identified during our
                                  audit of the United States Postal Service Financial
                                  Statements for fiscal year (FY) 1999, St. Louis Information
                                  Service Center (Project No. 99-PA-008-FR-002).

Results in Brief	                 Controls over the accountability of capital personal property
                                  need improvement. Personnel at postal installations:

                                  ♦ Were not always aware of their responsibilities or the
                                    applicable requirements.
                                  ♦ Did not provide appropriate attention to their duties.
                                  ♦ Did not have well organized records.

                                  In some instances, no one was specifically assigned to
                                  perform the required accountability functions. As a result,
                                  the Postal Service cannot ensure that capital personal
                                  property is adequately protected from unauthorized use or
                                  loss.

Background 	                      During the FY 1996 audit,1 Inspection Service personnel
                                  identified that property records were not accurate and
                                  capital personal property could not be located. Based on
                                  Inspection Service recommendations, the vice president,
                                  controller, agreed to work with Purchasing and Materials to
                                  conduct reviews as directed in the handbook AS-701,
                                  Material Management. In addition, a national
                                  inventory would be conducted during FY 1997 of items

1
    United States Postal Inspection Service Case No. 311-96-001-1177545-AD(1)




                                              Restricted Information
Capital Personal Property	                                                                             FR-FA-00-003



                                  costing $10,000 or more, with an analysis done to
                                  determine the effectiveness of the capital personal property
                                  controls.

Objective, Scope, and Our objective was to evaluate whether controls over the
Methodology           handling of capital personal property at postal installations
                      were effective and whether the property2 recorded in the
                      accounting system was physically located at the
                      accountable postal installations. During FY 1999, the
                      Inspection Service conducted financial installation audits at
                      200 statistically selected postal installations and 8
                      judgmentally selected district offices. In order to
                      supplement our financial statement audit, we provided the
                      Inspection Service with a sample of 1038 capital personal
                      property items costing about $56.2 million for 119 sites
                      audited. Two hundred fifty-four finance office locations were
                      reviewed for the 119 audit sites visited. This portion of the
                      audit was conducted throughout FY 1999 in accordance
                      with generally accepted government auditing standards and
                      included tests of internal controls as were considered
                      necessary under the circumstances. Inspection Service
                      personnel discussed conclusions and observations with
                      appropriate officials while conducting the individual
                      installation audits.

Capital Personal                  Controls over the accountability of capital personal property
Property Controls at              need improvement. Specifically, the following issues were
Postal Installations              identified during the review of 1038 sample items:

                                  •	 One hundred fifty-eight of the sample items, valued at
                                     about $6.6 million, were not located for verification. A
                                     list of these unverified items was provided to the St.
                                     Louis accounting service center for follow-up action.

                                  •	 One hundred fifty-three of the Postal Service Forms 961-
                                     A, Post Office Property Record, were not found.3

                                  •	 One hundred twenty-three of the forms 961-A found, did
                                     not have the correct location of the property noted.4

2
  Only capital personal property items costing $10,000 or more were included in our sample.
3
  Handbook AS-701, Material Management, dated September 1997, Section 573.3, provides that the Form 961-A is
the primary document for the accountability of capital property. The accountable facility must retain this card as long
as the capital property is under its accountability.
4
  Handbook AS-701, Section 573.1, notes that the Form 961-A tracks data such as the six-digit identification code
that should be affixed to the property and the equipment location.



                                                          2
                                               Restricted Information
Capital Personal Property	                                                                             FR-FA-00-003




                                  •	 Two hundred twenty-three of the sample items did not
                                     have an identification label affixed.5

                                  •	 One hundred thirteen of 254 finance office locations
                                     visited did not complete semi-annual evaluations of
                                     capital personal property.6

                                  This condition occurred because personnel at postal
                                  installations:

                                  ♦	 Were not always aware of their responsibilities or the
                                     applicable requirements.
                                  ♦ Did not provide appropriate attention to their duties.
                                  ♦ Did not have well organized records.

                                  In addition, in some instances, no one was specifically
                                  assigned to perform the required accountability functions.
                                  As a result, the Postal Service cannot ensure that capital
                                  personal property is adequately protected from
                                  unauthorized use or loss.

                                  The Inspection Service reported similar issues in their
                                  FY 1996 audit. Although the number of occurrences
                                  decreased, a systemic problem still exists that requires
                                  attention.

Recommendations                   We offer the following recommendations.

                                  The vice president, purchasing and materials, should:

                                  1. Advise accountable personnel (i.e., material
                                     accountability officers) of their responsibility to:
                                     (a) Maintain and adequately complete Forms 961-A.

                                       (b) Ensure that all capital personal property has an
                                           identification label appropriately attached to the
                                           property or, if not possible to attach to the property,
                                           Form 961-A.

5
  Handbook AS-701, Section 574.1, states that identification labels should be affixed to items of postal property as
official identification of the property. The label must remain with the property throughout its life. Section 573.6
continues that the label should be attached to the equipment in a location that is easy to view and scan. The label
can be attached to the Form 961-A if the item cannot be labeled.
6
  Handbook AS-701, Section 541.28, requires the Material Accountability Officer to evaluate the status of property
records and files by conducting an internal review (semi-annually).



                                                          3
                                               Restricted Information
Capital Personal Property                                                      FR-FA-00-003




                               (c) Complete internal reviews of the capital personal
                                   property inventory on a semi-annual basis.

                            2. Assess the reported problem areas on an independent
                               and periodic basis to ensure the Material Accountability
                               Officers adequately perform their responsibilities in
                               accordance with prescribed guidelines to protect the
                               capital personal property inventory.

                            The vice president, finance, controller, should:

                            3. Ensure that all unverified capital personal property is
                               located and properly recorded in the accounting system.

                            Please furnish a reply within 20 days describing the
                            corrective action planned or taken, including the timeframes,
                            on our recommendations. This finding will be included in a
                            consolidated report for the St. Louis Accounting Service
                            Center at the conclusion of the FY 1999 financial statement
                            audit. The report will include your comments and any
                            planned corrective actions. If you have any questions,
                            please contact me at (703) 248-2300 or
                                          .


                                  /sIgned/
                            Richard F. Chambers
                            Assistant Inspector General
                             for Performance

                            cc:	 Jayne E. Schwarz
                                 Kristine A. Wright
                                 Edward L. Brown
                                 John R. Gunnels




                                                4
                                     Restricted Information
